CERTIFICATE OF SERVICE
NO. TBD
Christopher Brewer
Petitioner,
v.
Teresa Pope Hooks, Individually and Estate of David Hooks
by Teresa Pope Hooks, Administratrix
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
CHRISTOPHER BREWER PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct
copies of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
G. Brian Spears
Spears & Filipovits, LLC
1126 Ponce de Leon Ave., N.E.
Atlanta, GA 30306
(404) 872-7086
bspears@brianspearslaw.com
Counsel for Teresa Pope Hooks and the
Estate of David Hooks

Mitch Shook
Salter, Shook & Tippett
P.O. Drawer 300
470 Randolph Dr.
Vidalia, GA, 30474 -8929
(912) 537-2666
mitchshook@vidalialaw.com
Counsel for Teresa Pope Hooks
and the Estate of David Hooks

Lucas DeDeus

November 30, 2020
SCP Tracking: Buckley III-2970 Clairmont Road NE-Cover White

